CERTIFICATE OF AFFIRMATION: COMPLIANCE: & SERVICE
I hereby affirm that I prepared and have read this Affidavit and
that I believe the foregoing statements in this AffidaVit to be true. I
hereby further affirm that the basis of these beliefs is either my own
direct knowledge of the legal principles and historical facts involved
and with respect to which I hold myself out as an expert or statements
made or documents provided to me by third parties whose veracity I
reasonably assumed.Thus, statements are made under penalty of perjury.
UCC(-30g
Further the Affiant sayeth naught.

V

ale-bleat

axl fe

Thomason

COMPLIANCE
I certify that the foregoing brief is not more than q0 pages
in length. I also certify that it is in compliance.
SERVICE

I, Daniel Thomason Smith:do certify that I have read the following
brief and that it is true and correct to the best of my ability. I also /
certify that, pursuant to 28 U.S.C. Section 1746, on the day of 3 ,31(1d.
IN the month of 1141fern.Ze-r a0g, 9 I have placed a copy of the
#79r eJ
foregoing pleading in the United States Mail with U.S. Postage pre-pad a
and affixed thereto'to be mailed to the following below by placing said
pleading in the hands of prison officials here where I am located pursuant
to the 'mailbox rule' . I am at F.C.I. Beaumont/LOW-Reg. # 29/633W
c/o P.O. Box 26020
Beaumont Texas 77720

V/
DISTRICT CLERK
U.S. Court
House

d O'Toole
300 till
t.
Beaumont, Texas

.54 re nae a 4,4t
Intachad har_n j'co1EHarris
o I erlts offioe

.4t

.

ctS le) •illy -

71E

o kpC
Q05
-z/3
a ge
'Sill

44,96

